The U.S. International Trade Commission is an independent, nonpartisan, quasi-judicial federal agency
that provides trade expertise to both the legislative and executive branches of government, determines the
impact of imports on U.S. industries, and directs actions against certain unfair trade practices, such as
patent, trademark, and copyright infringement. USITC analysts and economists investigate and publish
reports on U.S. industries and the global trends that affect them. The agency also maintains and publishes
the Harmonized Tariff Schedule of the United States.




                                             Commissioners
                                        Irving A. Williamson, Chairman
                                        Daniel R. Pearson
                                        Shara L. Aranoff
                                        Dean A. Pinkert
                                        David S. Johanson
                                        Meredith M. Broadbent
             UNITED STATES INTERNATIONAL TRADE COMMISSION

                                       WASHINGTON, DC 20436


November 9, 2012                                                          OIG-KK-021

Chairman Williamson:

This memorandum transmits the Independent Auditor’s Report on Compliance with Laws and
Regulations (OIG-AR-13-05) associated with the audit of the Commission’s financial statements for
fiscal year 2012.

We contracted with the independent certified public accounting firm, Castro & Company LLC, to
conduct the financial statement audit. The contract required that the audit be conducted in accordance
with U.S. generally accepted government auditing standards and these auditing standards require a
report on Compliance with Laws and Regulations to be produced as part of the audit.

The auditors did not identify any instances of noncompliance that would have a direct or material
effect on the determination of financial statement amounts.

Throughout the audit and at its conclusion, my office followed procedures and conducted a final
review designed to assure that the work performed by non-Federal auditors complied with the auditing
standards. Our final review disclosed no instances where Castro & Company did not comply, in all
material respects, with the U.S. generally accepted government auditing standards; however, this final
review cannot be construed as an audit, and is not intended to enable us to express, and we do not
express, any opinion on the Commission’s compliance with laws and regulations. Castro & Company
is solely responsible for this report dated November 8, 2012, and the conclusions expressed in the
report.

Thank you for the cooperation and courtesies extended to both Castro & Company and my staff during
this audit.

Sincerely,




Philip M. Heneghan
Inspector General
“Thacher’s Calculating Instrument” developed by Edwin Thacher in the late 1870s. It is a cylindrical, rotating slide
rule able to quickly perform complex mathematical calculations involving roots and powers quickly. The instrument
was used by architects, engineers, and actuaries as a measuring device.
